CERTIFICATE OF SERVICE
I hereby certify that on the 2d day of November, 2020, I filed the foregoing
with the Court’s Electronic Case Filing system, causing a copy to be served via
electronic mail to the parties’ respective counsel of record. I hereby certify that on
the 3d day of November, 2020, I deposited copies with the U.S. Postal Service for
delivery to Respondent and the Court.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Date: November 3, 2020
Respectfully submitted,
/s/ Kelly McClanahan
Kelly McClanahan

Counsel of Record

National Security Counselors
4702 Levada Terrace
Rockville, MD 20853
301-728-5908
Kel@NationalSecurityLaw.org

Counsel for Amici Curiae

